OIG Audit Report GR-80-09-004

Compliance with Standards Governing Combined DNA Index System Activities at the Texas Department of Public Safety Regional Crime Laboratory, El Paso, Texas
Audit Report GR-80-09-004
April 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General has  completed an audit of compliance with standards governing Combined DNA Index  System (CODIS) activities at the Texas Department of Public Safety Regional  Crime Laboratory - El Paso  (Laboratory).   The Federal Bureau of Investigation’s (FBI) CODIS program blends  forensic science and computer technology to provide an investigative tool to  federal, state, and local crime laboratories in the United States, as well as  those from selected international law enforcement agencies.  The CODIS program allows  laboratories to compare and match DNA profiles electronically to assist law  enforcement in solving crimes and identifying missing or unidentified persons.1  The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
The FBI implemented CODIS as a distributed database with  hierarchical levels that enables federal, state, and local crime laboratories  to compare DNA profiles electronically.   CODIS consists of a hierarchy of three distinct levels:  (1) National DNA Index System (NDIS), managed  by the FBI as the nation’s DNA database containing DNA profiles uploaded by  participating states; (2) the State DNA Index System (SDIS), used at the state  level to serve as a state’s DNA database containing DNA profiles from local  laboratories; and (3) the Local DNA Index System (LDIS), used by local  laboratories.  DNA profiles originate at  the local level and then flow upward to the state and, if allowable, national  level.  NDIS is the highest level in the  CODIS hierarchy and enables the laboratories participating in the CODIS program  to compare DNA profiles electronically on a national level.
The objectives of our audit were to determine if  the:  (1) Laboratory was in  compliance with the NDIS participation requirements; (2) Laboratory was in  compliance with the Quality Assurance Standards (QAS) issued by the FBI; and  (3) Laboratory’s forensic DNA profiles in CODIS databases were complete,  accurate, and allowable for inclusion in NDIS.
We determined that the Laboratory was generally in  compliance with those standards governing CODIS activities that we  reviewed.  However, we noted one  exception during our review.  Specifically,  we noted the following. 

We determined that the       Laboratory was in compliance with NDIS participation requirements for the areas       we reviewed.
We determined that the       Laboratory was in compliance with the Quality Assurance Standards we       tested.
Our review of 100 uploaded       forensic profiles revealed 14 profiles that were not allowable for       inclusion in NDIS.  The Laboratory       deleted these 14 profiles either shortly before we began our audit       fieldwork or while we were on site.  

The results of our audit are discussed in detail in the  Findings section of the report.  Our  audit scope and methodology are detailed in Appendix I of the report, and  the audit criteria are detailed in Appendix II.
We discussed the results of our audit with Laboratory  officials and have included their comments in the report as applicable.  In addition, we requested a written response  to a draft of our report from the FBI and the Laboratory.  We made no recommendations and the FBI and  the Laboratory made no comments.  The  Laboratory response can be found in Appendix III, while the FBI’s response can  be found in Appendix IV.  Appendix V  states that the report was issued closed.     


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material  found in almost all living cells that contains encoded information necessary  for building and maintaining life.   Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent  allow scientists to develop a unique set of DNA identification characteristics  (a DNA profile) for an individual by analyzing a specimen containing DNA.





 




Return to OIG Home Page